August 16, 2010

JOSEPH CORBETT
CHIEF FINANCIAL OFFICER AND EXECUTIVE VICE PRESIDENT

MARIE THERESE DOMINGUEZ
VICE PRESIDENT, GOVERNMENT RELATIONS AND PUBLIC POLICY

SUBJECT: Management Advisory – Federal Employees Retirement System
         Overfunding (Report Number FT-MA-10-001)

This report presents the results of our review of the Federal Employees Retirement
System (FERS) projected fund surplus as of September 30, 2009 (Project Number
10BS001FT000).1 The objective was to review the methodology for funding the FERS
pension responsibility and determine if there are opportunities for the U.S. Postal
Service to use the surplus to address its current and future financial situation. This self-
initiated review addresses financial risk. See Appendix A for additional information
about this review.

This report is one in a series of reports that describes the unsettling trend of the Postal
Service paying more than its fair share of retiree benefit payments owed to the federal
government. In a recent U.S. Postal Service Office of Inspector General (OIG) report,
we disclosed the inequitable funding of the Civil Service Retirement System (CSRS),
which resulted in the Postal Service overpaying an additional $75 billion into the
pension fund.2 This followed two other instances of overfunding CSRS pension
obligations.3 In addition, the OIG also reported that an exaggerated 7 percent health
care inflation forecast (instead of the 5 percent industry standard) resulted in an
overpayment of $13.2 billion for retiree health care liabilities.4 In response, Congress
urged the Postal Service to coordinate with the OPM and the Office of Management and
Budget to develop “a fiscally responsible legislative proposal” for Postal Service benefit
payments. We will be following this report with another report that evaluates the

1
  FERS is one component of the Civil Service Retirement and Disability Fund (CSRDF).
2
  The Postal Service’s Share of CSRS Pension Responsibility (Report Number RARC-WP-10-001, dated
January 20, 2010).
3
  In 2002, the Office of Personnel Management (OPM) found the Postal Service overfunded its CSRS obligations by
$78 billion. Legislation in 2003 corrected this overfunding. It was later determined the Postal Service was
overcharged $27 billion for CSRS military service credits. In 2006, these funds were returned to the Postal Service,
which used the surplus to fund retiree health care liabilities.
4
  Estimates of Postal Service Liability for Retiree Health Care Benefits (Report Number ESS-MA-09-001(R), dated
July 22, 2009).
Federal Employees Retirement System Overfunding                                                     FT-MA-10-001



prefunding requirements and benchmarks against other large companies and the
federal government.

The Postal Service’s pension obligations include both CSRS and FERS. As discussed,
the problems noted in the past have focused on CSRS and military pension liabilities
and retiree health benefit obligations. However, at the end of fiscal year (FY) 2009, the
OPM projected a $6.8 billion surplus in the FERS portion of the CSRDF.

Conclusion

The Postal Service has opportunities to use at least $5.5 billion5 of the $6.8 billion in
FERS surplus funds to address its current and future financial condition. We found the
Postal Service continues to overfund its retirement obligations and there is no present
legislation to resolve surpluses. Further, it is vital that the Postal Service’s
responsibilities be clearly delineated and separated from those of the rest of the federal
government. The overcharges associated with CSRS obligations, coupled with the
FERS surplus discussed in this report, have adversely affected the Postal Service’s
financial position, hindered its ability to operate efficiently in a business-like matter, and
hindered its transformation under the Postal Accountability and Enhancement Act
(PAEA).6 Action is needed to prevent a repeat of historical trends in the overfunding of
Postal Service retiree benefits.

Although we did not review the current actuarial valuation of the FERS pension liability,7
we did find that known or future changes to the valuation will impact funding of the
FERS pension. Management will need to consider these factors when determining what
action is needed to address the FERS surplus.

FERS Surplus

Consistent with other retiree benefit obligations, the Postal Service is being unfairly
burdened for its share of the FERS pension obligation. The OPM projected a $6.8 billion
surplus in the Postal Service’s FERS obligation at the end of FY 2009. The OPM
acknowledged that the federal government’s FERS obligation, excluding the Postal
Service, was unfunded by $7.4 billion at the end of FY 2008.8 The funding status for the
Postal Service, as well as the federal government, is calculated by subtracting




5
  Projected overfunded amount as of September 30, 2009 ($6.8 billion), less the impact of the 30-year anticipated
liability for sick leave credit ($680 million), less the impact of potential changes to actuarial assumptions ($620
million).
6
  Public Law 109-435.
7
  In accordance with PAEA, the OPM is responsible for calculating and providing pension obligation data.
8
  The OPM has not yet determined the actual amount for the Postal Service and the rest of the federal government as
of the end of FY 2009. The Postal Service’s overfunded amount at the end of FY 2008 was $6.5 billion. According to
the OPM, the federal government is currently paying a supplemental liability amortized over 30 years to fully fund
FERS.



                                                        2
Federal Employees Retirement System Overfunding                                                             FT-MA-10-001



the pension assets9 from the actuarial accrued liability.10 A higher liability results in an
unfunded status, while a lower liability results in a surplus. According to the OPM, the
liability is a projection for current and future benefit obligations and considers
contributions paid into and disbursements from FERS. Overall, the liability is based on
estimated demographics for the entire federal government, including the Postal Service.
However, the Postal Service’s benefits paid represent actual demographic behavior,
such as early career turnover, and not the aggregate, resulting in a surplus status for
the Postal Service and an unfunded status for the federal government.

Based on this data, the Postal Service’s overfunding issue is even larger than we
previously reported. Similar to what we have noted in other OIG retiree benefit reports,
Postal Service ratepayers continue to pay more than their fair share of retiree benefits.
It is important that the trend of overpayments does not continue. The Postal Service
faces a challenging future and its responsibilities and the true cost of funding postal
operations needs to be absolutely clear. To address that challenge, the Postal Service
is making operational changes to bring costs in line with revenue projections.
Additionally, it is pursuing legislative changes to address concerns raised about pension
and retiree health benefit payments. We believe management should also consider the
FERS overfunding issue as the Postal Service pursues legislative changes.

Legislative Actions

Current legislation11 does not specify how to resolve a surplus in the CSRDF. The
Postal Service is required to pay the normal cost12 annually, plus a supplemental
amount if the fund has an unfunded liability as of the measurement date
(September 30). If the fund has a surplus, there is no process to reduce the normal cost
contributions.

Further, legislation does not address how to consider future refinements in the liability
calculation and variances from actuarial gains that have a direct effect on the funding
status. Refinements, such as FERS credit for sick leave, mortality expectations, and
actuarial assumptions used, are important to consider when determining what should be
done with the surplus and future FERS pension obligations.




9
  Pension assets are used to pay retirement benefits and are comprised of investments, accrued interest on those
investments, and contributions by employers and participants.
10
   Actuarial accrued liability is defined as the actuarial present value of future benefits less the present value of future
normal cost contributions. The actuarial present value of future benefits is the value of plan benefits that are expected
to be paid in the future to current employees and annuitants stated in today’s dollars. The present value of future
normal cost contributions is the value, in today’s dollars, of the future normal cost contributions to be made over the
expected future working lifetimes of all current employees.
11
   U.S. Code, Title 5, Part III, Subpart G, Chapter 84, Subchapter II, § 8423 (b) (1) through (5).
12
   A plan’s target normal cost is the present value of all benefits expected to be earned under the plan during the plan
year.



                                                             3
Federal Employees Retirement System Overfunding                                                         FT-MA-10-001




        Sick Leave Credit

         Legislation13 was passed providing a retirement credit for sick leave. Eligible
         FERS employees will receive a length-of-service credit for their sick leave
         balances. The Congressional Budget Office estimated this will add an average of
         3 months to employees’ length of service. It would boost the average retirement
         benefit for an individual by $150 per year and $343 million for FYs 2010-2019 for
         the whole federal government. Both estimates include the Postal Service and its
         employees.

         The Hay Group14 estimates that it is likely that Postal Service FERS employees
         will take advantage of this benefit and their behavior will mirror that of CSRS
         employees (who currently have this benefit). This 30-year anticipated liability
         could reduce the current plan surplus by up to $680 million.

        Mortality Expectations

         Because employees and annuitants are expected to live longer, the OPM’s
         Board of Actuaries incorporated an assumption of future mortality improvement
         into the actuarial valuation as of September 30, 2007. This will cause the Postal
         Service’s (and the rest of the federal government’s) contribution rate to increase
         from 11.2 to 11.5 percent (employee’s payroll deductions remained unchanged),
         effective in FY 2011. The FERS surplus currently associated with the Postal
         Service may make it inappropriate for the agency to contribute at the same rate
         as the rest of the federal government.

        Actuarial Assumptions

         The OPM uses actuarial assumptions for the future rate of inflation, cost-of-living
         adjustments, annual salary increases, and a projected rate of return on the
         CSRDF to establish contribution rates. Understandably, actuarial assumptions
         will never equal the actual experiences, resulting in actuarial gains or losses.
         Changes in the economic climate or demographics may alter the funding status.

         The surplus is very sensitive to assumptions in the rate of return on the fund.
         However, this rate of return is likely to rise and fall consistently with the rate of
         inflation, and payments out of the fund would be somewhat sensitive to these
         inflationary pressures. The net effect of the volatility of these assumptions would
         likely reduce the surplus by $620 million.



13
  H.R. 2647, National Defense Authorization Act for Fiscal Year 2010, October 22, 2009.
14
  A consulting firm that specializes in retirement benefits who we contacted to estimate the impact that the sick leave
credit and actuarial assumptions factors have on the FERS portion of the CSRDF.



                                                           4
Federal Employees Retirement System Overfunding                                  FT-MA-10-001



The Postal Service was intended to be an independent, self-sufficient entity. As
discussed in previous reports, during the period when postal rates were set to cover
costs, citizens and businesses were charged far in excess of what was needed to fund
benefits. Postal Service ratepayers should not be burdened with federal liabilities.
Instead, they should be credited for their previous overpayments. Resolving the surplus
issue could assist the Postal Service with regaining financial strength and align it with
private sector funding for pension funds.

Separate Fund

Having retirement expenses commingled with the federal government’s budget, while
being expected to operate as an efficient business, puts the Postal Service in a
precarious position. The surplus in the CSRDF effectively subsidizes appropriated tax
dollars when it could be used to offset the Postal Service’s current and future business
expenses.

In addition, the PAEA requires the Postal Service to make certain disclosures regarding
obligations and changes in net assets as if the funds were separate. The OPM must
provide annual projections to the Postal Service for the retirement programs. Although
the Postal Service reports this required information in its annual 10-K financial report, by
having the OPM establish a sub-account within the CSRDF (without requiring
legislation), the sub-account would provide a more accurate reflection of the Postal
Service’s retirement fund status and increase transparency.

The FERS surplus indicates that the Postal Service has paid more than it needs to in
order to cover those retiree benefits. However, there is a potential risk that the Postal
Service’s liability may increase once a sub-account is established. Regardless, the
Postal Service would correctly align its pension obligations with its business revenue
and contribute what is necessary for its retirement expenses.

Impact of Resolving Overfunding

The Postal Service’s financial outlook has deteriorated significantly in recent years. The
Postal Service finished FY 2009 with a $3.8 billion loss. It also projects a $7 billion loss
for FY 2010 and continues to project losses through 2020. The current and projected
losses present a serious financial challenge to Postal Service management. Controlling
excessive surpluses in FERS pension obligations would substantially reduce annual
expenses the Postal Service incurs and increase the cash flow from its operations. This
promotes the Postal Service’s ability to operate on a self-supporting, break-even basis
and cover its expenses through its revenues rather than taxpayers dollars.

Based on our analysis, we have determined that the projected $6.8 billion surplus,
considering the impact of sick leave credit and potential changes to the actuarial




                                                  5
Federal Employees Retirement System Overfunding                                                        FT-MA-10-001



assumptions, results in a $5.5 billion adjusted surplus.15 See Appendix B for the Hay
Group’s Report on the United States Postal Service Federal Employees’ Retirement
System. We believe the Postal Service should pursue legislative action to use the FERS
surplus to its financial benefit and navigate toward a profitable future.

We recommend the vice president, Government Relations and Public Policy, in
coordination with the chief financial officer and executive vice president:

1. Pursue legislative action to alter the Postal Service’s Civil Service Retirement and
   Disability Fund contributions for 1 or more years until the Federal Employees
   Retirement System surplus is extinguished.

2. Coordinate with the Office of Personnel Management to identify causes of actual
   payout differences between the Postal Service and the rest of the federal
   government and use that information to reduce the risk of future surpluses.

3. Pursue legislative action to define future distribution of significant surpluses.

4. Coordinate with the Office of Personnel Management to create a sub-account within
   the Civil Service Retirement and Disability Fund exclusive to the Postal Service.

Management’s Comments

Management agreed with our finding and recommendations and stated that legislative
change should be pursued if FY 2010 FERS valuations support it. Since the FERS
overfunding issue is relatively new, management believes a comprehensive educational
effort to inform Congress of this development is necessary. Management also noted
they will coordinate with the OPM to identify differences between pension benefit
payments for the Postal Service and the rest of the federal government and to create a
Postal Service sub-account within the CSRDF. Finally, they will pursue legislative
amendments to define future distribution of significant surpluses. See Appendix C for
management’s comments in their entirety.

In subsequent correspondence, management targeted resolution of these issues by
September 30, 2011.




15
   Projected overfunded amount as of September 30, 2009 ($6.8 billion), less the impact of the 30-year anticipated
liability for sick leave credit ($680 million), less the impact of potential changes to actuarial assumptions ($620
million).



                                                          6
Federal Employees Retirement System Overfunding                             FT-MA-10-001



Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
management’s corrective actions should resolve the issues identified in the report.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Lorie Nelson, director,
Financial Reporting, or me at 703-248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachments

cc: Vincent H. DeVito, Jr.
    Deborah Giannoni-Jackson
    Stephen J. Masse
    Corporate Audit Response Management




                                                  7
Federal Employees Retirement System Overfunding                                                        FT-MA-10-001



                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Postal Service employees participate in one of three16 retirement programs based on
the starting date of their employment with the federal government. Career employees
hired after December 31, 1983, generally participate in FERS, which provides the same
retirement benefits as other federal government employees. FERS consists of three
elements: Social Security, a FERS annuity, and the Thrift Savings Plan. This review
focused only on the FERS annuity.

The CSRDF is available to pay both CSRS and FERS benefits. The OPM administers
the CSRDF and distributes annuities to retirees. The Postal Service contributes to the
CSRDF under provisions of the law through its business revenue and not through
appropriated tax dollars, as most federal agencies are funded. PAEA requires the
Postal Service to make certain disclosures regarding obligations and changes in net
assets as if the funds were separate. We took information regarding the CSRDF from
assumptions the OPM provided to the Postal Service for its annual 10-K report. This
review focused on the FERS portion of the fund.

At the end of FY 2009, approximately 507,000 career employees (81 percent of all
Postal Service employees) were enrolled in FERS. The Postal Service contributed
$3 billion to CSRDF for FERS based on a contribution rate of 11.2 percent of basic pay
for most employees. The OPM establishes FERS contribution rates using actuarial
assumptions for future rates of inflation, cost-of-living adjustments, annual salary
increases, and an assumed rate of return on the CSRDF. Federal agencies, including
the Postal Service, are required to fully fund FERS pension costs. This is done through
contributions from the various agencies along with employee payroll deductions.

At the end of FY 2008, the Postal Service’s portion of FERS had a $6.5 billion surplus
based on information from the OPM. The FERS surplus was projected to be $6.8 billion
at the end of FY 2009.17 The OPM projected a $6.8 billion surplus in the Postal
Service’s FERS obligation at the end of FY 2009. The OPM acknowledged that the
federal government’s FERS obligation, excluding the Postal Service, was unfunded by
$7.4 billion at the end of FY 2008.18 As of September 30, 2009, the federal
government’s and the Postal Service’s share of the CSRDF (including both FERS and
CSRS) was 41 and 99 percent funded, respectively. As a whole (including both the
federal government and Postal Service), CSRDF (including both FERS and CSRS) was
52 percent funded.


16
   The three retirement programs are CSRS, Dual CSRS/Social Security, and FERS.
17
   The OPM has not yet determined the final FY 2009 funding status.
18
   The OPM has not yet determined the actual amount for the Postal Service and the rest of the federal government
as of the end of FY 2009. The Postal Service’s overfunded amount at the end of FY 2008 was $6.5 billion. According
to the OPM, the federal government is currently paying a supplemental liability amortized over 30 years to fully fund
FERS.



                                                          8
Federal Employees Retirement System Overfunding                                                         FT-MA-10-001



OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to review the method for funding the FERS pension responsibility and
determine if there are opportunities for the Postal Service to use the FERS surplus to
address its current and future financial situation. To achieve our objective, we:

        Reviewed prior OIG and Government Accountability Office (GAO) reports.

        Researched financial reports from Watson Wyatt,19 the OPM, and other
         governmental entities.

        Studied FERS legislation.

        Calculated the Postal Service’s contributions to FERS.

        Solicited input from the OPM, the GAO, the Postal Regulatory Commission, and
         the Postal Service.

        Evaluated impacts and potential change in the FERS portion of the CSRDF
         pension fund valuation.20

We conducted this review from March through August 2010 in accordance with the
Quality Standards for Inspections.21 We discussed our observations and conclusions
with management officials on June 22 and 25, 2010, and included their comments
where appropriate.

We determined the computer-generated data from the Postal Service’s Accounting Data
Mart to be reliable. To validate the data, we reconciled account balances to supporting
reports to ensure accuracy. We did not independently verify the $6.8 billion surplus or
the OPM’s actuarial assumptions and contribution rate. The procedures we performed
do not constitute an audit or an actuarial review of the OPM’s projections, and we are
not expressing an opinion on the material accuracy of the calculations made by the
OPM.

PRIOR AUDIT COVERAGE

        The Postal Service’s Share of CSRS Pension Responsibility (Report Number
         RARC-WP-10-001, dated January 20, 2010). This white paper addressed the

19
   Watson Wyatt (Towers Watson) is a leading global professional services company that helps organizations
improve performance through effective people, risk, and financial management.
20
   We contracted with the Hay Group, a consulting firm specializing in retirement benefits, to perform the evaluation.
21
   These standards were last promulgated by the President’s Council on Integrity and Efficiency (PCIE) and the
Executive Council on Integrity and Efficiency (ECIE) in January 2005. Since then, The Inspector General (IG) Act of
1978, as amended by the IG Reform Act of 2008, created the Council of the Inspectors General on Integrity and
Efficiency (CIGIE), which combined the PCIE and ECIE. To date, the Quality Standards for Inspections have not
been amended to reflect adoption by the CIGIE and, as a result, still reference the PCIE and ECIE.



                                                           9
Federal Employees Retirement System Overfunding                                FT-MA-10-001



       inequitable funding of CSRS, which resulted in the Postal Service overpaying
       $75 billion into the pension fund. We suggested the surplus be transferred to the
       Postal Service Retiree Health Benefit Fund to fully meet the Postal Service’s
       future retiree health care liability and eliminate the need for future annual
       payments. Additionally, the payments for current retiree health benefits could be
       drawn from the fund, saving the annual cost (which was $2 billion in FY 2009).

      Federal Budget Treatment of the Postal Service (Report Number
       ESS-WP-09-001, dated August 27, 2009). This white paper disclosed that, with
       regard to the federal budget, the Postal Service’s revenue and expenses are
       classified as off-budget, yet the retirement contributions are classified as on-
       budget and included in the budget process. Reductions in retirement
       contributions have a negative effect on the federal deficit, which are
       disadvantageous to the federal government. To foster Postal Service
       independence, we suggested that the Postal Service pursue legislative change to
       shift its retirement fund to off-budget status.

      Estimates of Postal Service Liability for Retiree Health Care Benefits (Report
       Number ESS-MA-09-001(R), dated July 22, 2009). This report concluded that the
       OPM’s actuarial assumption for the annual health care cost inflation rate was
       unreasonably high, which resulted in overestimating the Postal Service’s future
       retiree health care liability by $13.2 billion by the end of FY 2016. We
       recommended the Postal Service pursue legislative relief from the mandated
       schedule of payments into the Postal Service Retiree Health Benefit Fund.

      Civil Service Retirement System Overpayment by the Postal Service (Report
       Number CI-MA-10-001, dated June 18, 2010). This report concluded that the
       return of the overpayment or a combination of actions to realize the benefit of the
       $75 billion overpayment to the Postal Service would fully fund the pension and
       health retiree plans. Also, the Postal Service’s more than $7 billion annual
       payments for retiree health care prefunding and retiree health care premiums
       would no longer be needed because (1) the pension and health care retiree
       plans would be fully funded and (2) interest income from the fully funded retiree
       health benefit fund could pay annual premiums. We recommended the Postal
       Service secure the return of the $75 billion overpayment or to otherwise realize
       the benefit of this overpayment to the Postal Service.




                                                  10
Federal Employees Retirement System Overfunding          FT-MA-10-001



                           APPENDIX B: HAYGROUP REPORT




                                                  11
Federal Employees Retirement System Overfunding        FT-MA-10-001




                                                  12
Federal Employees Retirement System Overfunding        FT-MA-10-001




                                                  13
Federal Employees Retirement System Overfunding        FT-MA-10-001




                                                  14
Federal Employees Retirement System Overfunding        FT-MA-10-001




                                                  15
Federal Employees Retirement System Overfunding        FT-MA-10-001




                                                  16
Federal Employees Retirement System Overfunding        FT-MA-10-001




                                                  17
Federal Employees Retirement System Overfunding        FT-MA-10-001




                                                  18
Federal Employees Retirement System Overfunding        FT-MA-10-001




                                                  19
Federal Employees Retirement System Overfunding        FT-MA-10-001




                                                  20
Federal Employees Retirement System Overfunding        FT-MA-10-001




                                                  21
Federal Employees Retirement System Overfunding        FT-MA-10-001




                                                  22
Federal Employees Retirement System Overfunding        FT-MA-10-001




                                                  23
Federal Employees Retirement System Overfunding        FT-MA-10-001




                                                  24
Federal Employees Retirement System Overfunding        FT-MA-10-001




                                                  25
Federal Employees Retirement System Overfunding        FT-MA-10-001




                                                  26
Federal Employees Retirement System Overfunding        FT-MA-10-001




                                                  27
Federal Employees Retirement System Overfunding           FT-MA-10-001



                      APPENDIX C: MANAGEMENT’S COMMENTS




                                                  28
Federal Employees Retirement System Overfunding        FT-MA-10-001




                                                  29
